                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A13030048                                                                         Page 1 of 1



                                                                                                        2
                 Our office received an allegation of plagiarism in a proposal. 1 We wrote to the PI who
         stated that her proposed work was based on the work described in the source document and she
         believed she had provided adequate citation to the source. The subject agrees that she would not
         plagiarize in a publication but does not appear to understand that NSF has similar citation standards
         as publications.

                 Given the specifics of this case and the smaller amount of copied text, we determined that the
         actions did not rise to the level of research misconduct. We wrote to the subject reminding her ofthe
         need to properly cite text used from another source.

                   This case is closed with no further action taken.




NSF OIG Form 2 (ll/02)
